<html>
<title> - THE RISE OF DRUG-RELATED VIOLENT CRIME IN RURAL AMERICA: FINDING SOLUTIONS TO A GROWING PROBLEM</title>
<body><pre>[Senate Hearing 110-357]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-357
 
   THE RISE OF DRUG-RELATED VIOLENT CRIME IN RURAL AMERICA: FINDING 
                     SOLUTIONS TO A GROWING PROBLEM

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 24, 2008

                               __________

                            Rutland, Vermont

                               __________

                          Serial No. J-110-81

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
41-958                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
           Stephanie A. Middleton, Republican Staff Director
              Nicholas A. Rossi, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    66
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     3

                               WITNESSES

Bossi, Anthony L., Chief of Police, Rutland City Police 
  Department, Rutland, Vermont...................................    11
Colston, Hal, Executive Director, NeighborKeepers, Burlington, 
  Vermont........................................................    18
Klavens, Bert, Coordinator of Outpatient Substance Abuse 
  Treatment Program for Adolescents and Young Adults, Washington 
  County Youth Service Bureau/Boys and Girls Clubs, Montpelier, 
  Vermont........................................................    21
Louras, Hon. Christopher C., Mayor, City of Rutland, Vermont.....     7
Moran, Mary E., Superintendent of Education, Rutland City Public 
  Schools, Rutland, Vermont......................................    13
Tremblay, Thomas R., Commissioner of Public Safety, State of 
  Vermont Department of Public Safety, Waterbury, Vermont........    16
Welch, Hon. Peter, a Representative in Congress from the State of 
  Vermont........................................................     5

                       SUBMISSIONS FOR THE RECORD

Bossi, Anthony L., Chief of Police, Rutland City Police 
  Department, Rutland, Vermont, statement........................    33
Cimaglio, Barbara, Deputy Commissioner, Division of Alcohol and 
  Drug Abuse Programs, Vermont Department of Health, Burlington, 
  Vermont, statement.............................................    36
Cohen, Sandy, Executive Director, The Mentor Connector, Rutland, 
  Vermont, statement and letter..................................    38
Colston, Hal, Executive Director, NeighborKeepers, Burlington, 
  Vermont, statement.............................................    40
Cutro, John, Restorative Community Practice Development, 
  Winooski, Vermont, statement and attachments...................    42
Klavens, Bert, Coordinator of Outpatient Substance Abuse 
  Treatment Program for Adolescents and Young Adults, Washington 
  County Youth Service Bureau/Boys and Girls Clubs, Montpelier, 
  Vermont, statement.............................................    59
Lancaster, Patricia M., Public Defender, Mendon, Vermont, letter.    63
Louras, Hon. Christopher C., Mayor, City of Rutland, Vermont, 
  statement......................................................    69
Moran, Mary E., Superintendent of Education, Rutland City Public 
  Schools, Rutland, Vermont, statement...........................    72
Sand, Robert L., Windsor County State's Attorney, Woodstock, 
  Vermont, letter................................................    75
Tremblay, Thomas R., Commissioner of Public Safety, State of 
  Vermont Department of Public Safety, Waterbury, Vermont, 
  statement......................................................    77
Welch, Hon. Peter, a Representative in Congress from the State of 
  Vermont, statement.............................................    94
Whitney, Patty, Foster Parents for the State of Vermont, letter..    97


   THE RISE OF DRUG-RELATED VIOLENT CRIME IN RURAL AMERICA: FINDING 
                     SOLUTIONS TO A GROWING PROBLEM

                              ----------                              


                         MONDAY, MARCH 24, 2008

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, Pursuant to notice, at 9:14 a.m., in the 
Franklin Conference Center at the Howe Center, 92 Strongs 
Avenue, Rutland, Vermont, Hon. Patrick J. Leahy, Chairman of 
the Committee, presiding.
    Present: Senators Leahy and Specter.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. It is nice to see everybody 
here. I could not help but notice that we have a little bit 
less snow down here than we do up where my home is up in 
Middlesex. But it was a lovely ride down.
    It is interesting. I was talking with Senator Specter last 
night about being here. Back years ago when I was first 
Chairman of the Senate Agriculture Committee, I invited then 
Senator Henry Bellmon from Oklahoma to come here, and we held a 
hearing in Rutland because I had bragged so much about Rutland 
and what a wonderful city this is, and the area. And Senator 
Bellmon had been Governor of Oklahoma, now retired. I was 
talking with him just a few weeks ago, and he still remembered 
getting up early in the morning and just walking around 
Rutland, and he still has pictures at his home from when he was 
here.
    But the reason we are here in my home State of Vermont is 
to hear from the people of Rutland about the persistent problem 
of drug-related violent crime in rural communities. Now, that 
is a crisis that we have felt acutely here in Vermont, but it 
is also being felt throughout America.
    The myth is still alive that drug abuse and drug-related 
crime are only big-city problems. The fact is that rural 
America is also coping with these issues. We need a fresh look 
at drug crime through the lens of the experience of smaller 
cities and rural communities, and so bringing the Senate 
Judiciary Committee here I hope will give the Senate and the 
Congress a better perspective.
    Rutland is a public-spirited community with creative 
leadership. It is not satisfied with the status quo, and I 
think that makes Rut

[[Page 2]]

land's experience and ideas all the more valuable to other 
communities around the country that are confronting these same 
issues.
    I am glad that so many people who care about and work on 
these issues have joined us today to try to figure out how to 
fix the problem, including Federal and State officials, local 
law enforcement leaders, educators, experts in prevention and 
treatment, concerned parents and members of the community.
    I do want to thank my friend Senator Arlen Specter for 
making the trip to Vermont, and his wife, Joan, for coming 
here. Senator Specter and I first met when we were prosecutors. 
He was the district attorney of Philadelphia. I was State's 
attorney of Chittenden County. We met at a prosecutors' meeting 
in Philadelphia. We have cared deeply about fighting crime 
since our days as prosecutors. We understand that violent crime 
is a major issue for smaller cities and rural communities, 
whether in Vermont or rural Pennsylvania, or anywhere else, as 
well as it is in the big cities.
    The numbers alone are reason for concern. The Vermont Crime 
Information Center says that reported crimes in Vermont rose 
5.7 percent from 2005 to 2006, even though they had previously 
declined for several years. Violent crime in Vermont rose 
nearly 10 times--let me emphasize that, 10 times--the national 
average. That is a stark increase, but it is consistent with 
what has been happening in rural areas all over the country.
    Recent events have brought the statistics of crime rates 
into stark relief. Here in Rutland, we have seen four drug-
related shootings since November. On February 4, 2008, two men 
were shot, one fatally, on Grove Street in Rutland City in a 
drug deal gone bad. The mayor and I have had long discussions 
about that.
    The problems Rutland has encountered are like those seen in 
communities large and small all over this country. What is 
helpful here is that Rutland is showing leadership in 
addressing those problems, and Rutland is a community 
interested in solutions. The town has responded, as Vermonters 
always do, by working together and joining forces to tackle the 
problem. Local leaders have met to discuss new ways to improve 
safety, and individuals and companies have donated money to 
help provide overtime funding for Rutland police officers. I 
think the ideas and experiences can be useful to other 
communities elsewhere. We know there is no one-size-fits-all 
solution to this kind of a problem.
    Law enforcement is a vital piece of any plan to reduce 
violence. The Rutland Police Department--and I have known Chief 
Bossi for years--and law enforcement throughout Vermont have 
worked extremely hard to respond to and prevent violence. They 
have often been successful. But for years, in Vermont and 
elsewhere, State and local law enforcement have been stretched 
thin as they shoulder both traditional crime-fighting duties 
and new homeland security demands. They have faced continuous 
cuts in Federal funding under this administration, and time and 
time again, our State and local law enforcement officers, like 
the Vermont State Police and the Rutland Police Department and 
their counterparts in other States, have been unable to fill 
department vacancies. And the trend is unacceptable.
    We have made some progress. Since 2001, I have worked to 
secure Federal funding in the Justice Department budget, 
including

[[Page 3]]

$1 million this year for the Vermont Drug Task Force. They have 
played an essential role in cracking down on increased drug 
activity throughout our State.
    We have also had setbacks. At the height of its funding, 
the Community Oriented Policing Services, or COPS, increased 
our police presence on the streets, and by all accounts had 
aided in the steady decline in the national crime rate in the 
1990's. But beginning with the President's first year in 
office, the administration has significantly cut the COPS 
program. I think that is a mistake, and I think it is one of 
the reasons we have seen violent crime increase. The Byrne-
Justice Assistance Grants are unique in enabling and 
encouraging cross-jurisdictional solutions to preventing crime. 
Vermont's own Drug Task Force is a prime example of the Byrne 
approach. But funding there has fallen dramatically since 2002, 
from $900 million to $170 million this year, and these cuts 
directly hit local police.
    We have also seen funding cuts hit the Crime-Free Rural 
States grant program, which was funded through the $10 million 
dollars I put in the appropriations bill in 2003. Since then, 
funding for this important program to help local communities 
prevent crime and violence and substance abuse has been 
eliminated.
    We are trying to reverse these trends, but we have to do 
more. We have to restore the COPS and the Byrne-JAG and the 
Crime-Free Rural States programs. These are things we need to 
help police officers.
    While I have always pushed for serious punishment for 
serious crimes, I think one of the things our law enforcement 
would be the first to tell you, law enforcement alone is not 
going to solve the problem of violence in our communities. We 
have to have an approach to crime with equal attention to law 
enforcement, prevention and education, and treatment; provide 
young people with opportunities and constructive things to do; 
and, of course, the most important component in this crucial 
problem is collaboration. We see what happens when we get 
State, local, and Federal working together.
    So I will put my whole statement in the record. I should 
indicate a number of people have statements that they want for 
this record, and we will keep the record open, and we will add 
their statements beyond those of the people who are going to 
testify.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Chairman Leahy. Senator Specter, welcome again to Vermont. 
It is a delight having you here.

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman. I think much of 
America will appreciate this unique hearing today because much, 
really most of America exists outside of the large cities. And 
crime is a problem which knows no geographic boundaries and no 
side boundaries. So to see the Judiciary Committee focused on a 
hearing in Rutland, Vermont, I think will be appreciated all 
across America. It is a pleasant change from having the hearing 
in Washington

[[Page 4]]

or Philadelphia or Los Angeles to recognize that moderate-town 
and small-town America counts, too.
    I am very much impressed to walk into this hearing room. We 
get pretty good size crowds in Washington, but it takes the 
confirmation hearing of Chief Justice Roberts to do it.
    [Laughter.]
    Senator Specter. We do not often see this many people 
coming into even the hearing rooms in Washington, D.C. And we 
have television cameras, too. Not this many.
    [Laughter.]
    Senator Specter. When I go back to Washington and tell my 
colleagues how many television cameras there were here, Senator 
Hatch is going to be very angry he did not show up.
    [Laughter.]
    Senator Specter. This is a spectacular kind of an event. 
And when Patrick and Marcelle invited Joan and me to come 
today, we looked forward to a trip to the beautiful Vermont 
countryside, which we saw yesterday driving from Burlington, 
and again this morning. And if you have not stayed at the Lilac 
Inn, I recommend it.
    [Laughter.]
    Senator Specter. Joan and I have been to Vermont on many 
occasions in the past. Years ago we came here cross-country 
skiing, and our son, Steve, is a graduate of the University of 
Vermont Medical School, so during his 4 years here we were 
frequent flyers, frequent visitors.
    The subject that we are on today is one of really gigantic 
importance. Senator Leahy has outlined the statistics. I have 
been reviewing them. I have noted the increases in crime. I 
have noted the drug-related murder in your area not too long 
ago, and the drug problem creates a special concern as a 
motivating factor on people murdering, stealing, and assaulting 
in order to feed their habit.
    And Senator Leahy has outlined the problem with respect to 
Federal funding. We have a very tight Federal budget, and I am 
looking forward to the day when either Senator Leahy is 
Chairman of Appropriations or I am Chairman of Appropriations. 
I am looking--
    [Laughter.]
    Senator Specter. I am looking forward to one of those days 
a little more with interest than the other.
    [Laughter.]
    Senator Specter. But Senator Leahy and I, as you may have 
noticed, have passed the gavel what I would call seamlessly. We 
work on a bipartisan basis. And that is not easy to do in 
Washington, D.C.
    But I mention the chairmanship of the Appropriations 
Committee because we really need a re-evaluation of priorities. 
We have not had a top-to-bottom analysis, and as Pat or I 
become Chairman, I think you will see that. And the Federal 
Government has a significant role to play, more so than it is 
playing now.
    We have at the Federal level the armed career criminal 
bill, which proposes to give life sentences to career 
criminals, and I think that is necessary. Career criminals 
commit 70 percent of the offenses. But beyond the career 
criminals, if you are a juvenile or a first offender, or even a 
second offender, you are going to be re

[[Page 5]]

leased to the community. And we have never really attacked 
realistic rehabilitation with enough intensity to have drug 
treatment, to release people who are not dependent on drugs or 
alcohol. We release functional illiterates without a trade or a 
skill. There is no surprise that they go back to a life of 
crime.
    Senator Leahy and I took the lead in a bill we just passed 
10 days ago in the Senate, the Second Chance Act. People are 
going to have a second chance, and we want them to be released 
into the community with a chance not to be recidivists in their 
interest and in the interest of law-abiding citizens.
    So there is much to be done, and I am delighted to join my 
distinguished colleague, the Chairman, and I commend him for 
scheduling this hearing.
    The red light went on. I conclude.
    [Laughter.]
    Chairman Leahy. Well, Senator Specter and I have passed the 
gavel back and forth several times, and one of the nice things 
about--when I first came to the Senate, I was the junior-most 
Member there, and they told me so much is based on seniority. 
And I said it was a terrible idea. Having studied it for 
several decades now, I think it is a great idea, and it has 
worked--
    [Laughter.]
    Chairman Leahy. It has worked well both for Senator Specter 
and me--and this gavel, incidentally, is one my oldest son, 
Kevin, made for me in grade school, I believe it was, in shop. 
And I have used it--it gets retired periodically, but I have 
used it ever since.
    Our first witness this morning is going to be Peter Welch, 
our Congressman. When he was State Senator Welch and the 
President pro tem of our Senate, he also had to work to put 
together our State legislation on criminal matters and how we 
coordinate. Now in a key role, especially on the Rules 
Committee in the House of Representatives, all of these bills 
have to be reviewed by him.
    Congressman, it is great to have you here. Please go ahead.

  STATEMENT OF HON. PETER WELCH, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VERMONT

    Representative Welch. Thank you very much, Chairman Leahy, 
for the invitation to testify, and thanks for bringing the U.S. 
Senate Judiciary Committee, with your former Chairman and 
present very good close colleague, Senator Specter, to focus on 
this issue of drug crime. And, Patrick, Vermont is a much 
better place because of the work you have done on criminal 
justice issues, starting with your days as the Chittenden 
County prosecutor.
    Chairman Leahy. Thank you.
    Representative Welch. And, Senator Specter, we are very 
grateful for you to come here as well and provide your 
leadership and the close working relationship you have with 
Senator Leahy.
    You know, you made an observation, Senator Specter, about 
the turnout here, and it really reflects, I think, something 
that is quite important. Folks in Rutland had to make a 
decision whether they were going to ignore the problem or 
confront the problem, because what folks here are doing in this 
community, as much as any other in Vermont, is trying to build 
their community. They want to revitalize it. They want to make 
it safe for families. They want busi

[[Page 6]]

nesses to come here. They want to have a good reputation, and 
they are working hard, and I believe being quite successful. 
But bringing up the problem of drug crime was a tense decision 
because you almost do not want to acknowledge it. But the 
people here and this turnout I think this reflects that they 
are going to challenge that problem, and they very much 
appreciate, Senator Leahy and Senator Specter, you bringing 
with it the attention of the U.S. Congress.
    I came down here a while ago and met with Mayor Louras and 
Chief Bossi--that was on January 19th--and they were extremely 
concerned about the emerging drug problem and the efforts that 
Rutland was taking to cope with this increase in illegal drug 
activity. And it was only weeks after my visit with the mayor 
and with the chief that there was a drug-related murder that 
took place only blocks away, and very, very close to a middle 
school. And one of the things that the mayor and the chief 
impressed upon me: that Rutland is not at all alone in this 
struggle with drugs and the violence and the crime that is 
associated with it. It really does extend to all corners of the 
State. Chief Tim Bombardier of Barre and Tony Facos, the chief 
in Montpelier, who is here, Captain Tom Nelson of the Vermont 
Drug Task Force--all have talked about the rise in violent 
crime and property crime that is related, as you both know very 
well, to drug activity.
    Rutland is a safe city, despite some of these crimes. 
Relative to other places, our violent crime rate is pretty low. 
But recent events prove, as, again, both of you have mentioned, 
that even in safe rural States like Vermont, we are not at all 
immune to national trends.
    In 2006, we saw a 12-percent jump in violent crime, and 
while the overall numbers may seem low, any crime that affects 
the safety and the security of our people is crime that has to 
be challenged and has to be stopped. And it is not just about 
the impact of the crime directly on the individuals. It really 
has an impact on the community. And if we are going to maintain 
the reputation that Vermont has as a safe place, something that 
is important day to day to our families, to our kids going to 
school, to the efforts of economic revitalization, we have to 
work hard to address this problem.
    On the topic of solutions--and that is what I think all of 
us are interested in--the first thing that is essential--and I 
believe we have it here in the State of Vermont--is 
collaboration among our various law enforcement units. And 
today we have many representatives from the various law 
enforcement communities, not just Rutland but the State Police 
and from police departments around Vermont. And what I have 
learned is something I think both of you know: The police 
recognize that there are no boundaries on drug-related crime or 
other crime. And, consequently, they cannot stop cooperation at 
the jurisdictional boundary of their entity. So Rutland folks 
have to work with others. Montpelier folks have to work with 
others as well.
    Senator Leahy, the other two things are what you mentioned: 
There has to be resources--the COPS program, Byrne grants. 
These are essential tools so that the police have the resources 
that they need. And what I found I think is what you described, 
and that is that in Congress there really is a bipartisan 
recognition that

[[Page 7]]

we have got to give our local law enforcement agencies the 
tools they need.
    So I thank you for coming and bringing attention to this 
problem. Thank you very much.
    [The prepared statement of Mr. Welch appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you very much, Congressman, and 
I know you have been traveling all over the State and this, as 
you know, is not unique to Rutland.
    Mayor Christopher Louras--one, I want to thank you for 
hosting us here in Rutland today. I have said publicly that I 
commend the mayor for his commitment to finding some innovative 
solutions to the problems of drugs that afflict not only here 
but all our small cities and towns around America. I hope that 
Rutland, under your leadership, Mayor, might prove as a model 
elsewhere. That is why we are having the hearing here today. 
You and I have had discussions by phone about this, and I know 
my staff has worked with you, and I want to thank you for 
making the Howe Center and making this available. Please go 
ahead, sir.

    STATEMENT OF HON. CHRISTOPHER C. LOURAS, MAYOR, CITY OF 
                        RUTLAND, VERMONT

    Mayor Louras. Well, gentlemen, good morning.
    Though courtesy necessitates that I graciously welcome you 
to the city of Rutland today, and I sincerely do extend our 
community's warmest regards, it would be disingenuous to say 
that I am glad that you are here. The reality is that I wish 
that you did not have to be.
    I wish that our community were not plagued with the scourge 
of illicit drug abuse and addiction that has been creeping 
across rural America. I wish that our community had not fallen 
prey to the crime that so often accompanies interstate drug 
activity. And I wish that we could blissfully say, ``Drug 
related violence? Not here.'' and simply have that be true. But 
the cold reality is that this community, like so many others 
throughout our Nation, has a drug problem, and we need not only 
local but nationwide solutions in order to be successful in 
combating this curse.
    When your Committee visit was announced, there were local 
officials who were somewhat distraught over the prospect of 
hosting a U.S. Senate Judiciary Committee hearing on drug-
related crime. They were concerned about public perception and 
the prospect of negative press at a time when Rutland needs to 
highlight its assets in order to compete during a time of 
economic downturn. But I contend that it is infinitely wiser to 
admit that our city is, like many other cities throughout the 
State, the Northeast, the Nation, in a fierce struggle for its 
community identity and the public's safety.
    The first step to reversing any destructive behavior is to 
admit that there is a problem. Self-denial is by far our 
greatest threat. The city of Rutland and the State of Vermont 
already have the necessary building blocks to battle this 
scourge. We have a very aggressive law enforcement community. 
We have progressive prevention and intervention programs. And 
we have a realistic and engaged population that is not sticking 
its collective head in the sand and pretending that no problem 
exists.
    But what we do need are tools and resources. We are dealing 
with a true interstate problem and national problem that 
requires Federal support. The Senate Judiciary Committee, 
however, need not reinvent the wheel because you have already 
proved that you know what to do and how to address the problem.
    Through the Senate passage of S. 456, The Gang Abatement 
and Prevention Act of 2007, you and your fellow Committee 
members have created a blueprint for effective interdiction 
efforts through enforcement, prevention, and intervention 
programs. Federal initiatives like S. 456, statewide 
initiatives like Pennsylvania's ``Weed and Seed'' Program, and 
local initiatives like ``Rutland United Neighborhoods'' are key 
to any community's success in its struggle against drug abuse 
and the crimes that it brings. But law enforcement and 
prevention programs are only as successful as the funding that 
is made available to pay for them, and, unfortunately, the 
funding burden is falling more and more on the local 
municipalities.
    Over the past few short years, as all three of you are well 
aware and have discussed today, direct Federal funding to 
municipalities has been subject to significant reductions. The 
Byrne-Justice Assistance Grant Program, which local 
municipalities throughout the State and region have relied upon 
to keep control of our streets, is but a fraction of what is 
needed and a fraction of what should be allocated as we 
continue to cope with both local and interstate drug 
activities. In short, we need your help so we can help 
ourselves.
    Rutland is blessed with a beautiful downtown core, a 
dedicated professional work force, and one of the finest 
educational systems in the State, but all of its combined 
assets are worthless if our neighborhoods are, or simply feel, 
unsafe.
    In closing, I just want to thank you for allowing us the 
privilege of being part of finding the solution to a national 
crisis, and I am very confident that you will find the ensuing 
boots-on-the-ground testimony to be enlightening, constructive 
and valuable. And we all understand the gravity of this 
widespread problem. I wish you Godspeed in your efforts to help 
us find a way out.
    Thank you.
    [The prepared statement of Mayor Louras appears as a 
submission for the record.]
    Chairman Leahy. Thank you, Mayor, and I agree with what you 
say about Rutland being such a beautiful city. I still have 
memories of when I was a little child coming down here with my 
parents, and my parents' printing business, and coming down 
here and working with others and many, many friends and 
relatives here in this area.
    Senator Specter, any questions?
    Senator Specter. Well, thank you, Mr. Chairman. Time for 
cross-examination?
    Chairman Leahy. Sure.
    [Laughter.]
    Senator Specter. I will start with you, Mayor, on the local 
level. Senator Leahy and I have been in law enforcement for 
decades, and, regrettably, we have not made any progress on the 
underlying causes of crime; that is, the issues of education or 
housing or job training, we still are at sea. And I would be 
interested to know

[[Page 9]]

your experience in Rutland compared, say, to Philadelphia, 
where there is an enormous homicide rate and drug usage. And a 
core part of the problem comes from what we call at-risk youth, 
young people who grow up in a one-parent household, no father, 
a working mother, and they are adrift. And we have started a 
program with some funding for mentors, because mentors rely on 
volunteers, and volunteers contribute their time. And our 
country has a great record for volunteers--the Peace Corps and 
AmeriCorps. And I would be interested to know in your city if 
you have similar problems to at-risk youth and to what extent 
you use mentoring now, because it is used, and what you think 
about the application of getting volunteers to be surrogate 
parents to give some guidance to these at-risk youth.
    Mayor Louras. Yes, sir. Well, that is a very fair question. 
As far as any of the specifics of the program that is in place, 
I would have to defer to individuals who are involved. I know 
that last week Sandy Cohen, who runs a mentoring program in the 
city, was wondering about what the process was to be a witness, 
and I believe she is submitting written testimony.
    Chairman Leahy. She is.
    Mayor Louras. Yes. And, you know, Rutland is engaged, 
again, in all aspects of volunteerism with our great community 
networking that we have. And that is a piece of the solution 
for sure.
    We also take very seriously the program of the school 
resource officers to help target the at-risk youth in the 
community, and the school superintendent of the city of 
Rutland, Mary Moran, will address that as well. But we 
certainly understand that I think the crux of the entire 
problem is, as you said, it starts with the family. And it is 
very difficult for any community, whether it is the size of 
Philadelphia, the size of Rutland, or the size of a Belmont in 
Vermont, to try to address the issues that happen behind closed 
doors, that happen within a family. You have to have the other 
resources available within the schools, within mentoring 
programs, or other nonprofits to address those problems.
    Rutland has identified that as an area where we need to 
work. Frankly, I have got to tell you, I have been in office a 
year, and before I got into this office, I really felt that law 
enforcement was simply the sole way to go. But my police chief, 
Anthony Bossi, has beaten me over the head for month upon month 
that it is only a piece of that three-legged stool. And I have 
become a believer in that and understand the importance of 
prevention, treatment, education, as well as law enforcement.
    Senator Specter. Congressman Welch, you have had experience 
to some extent in the House. I know you are a relative 
newcomer, but you have experience in your State legislature. 
What do you think our chances are for having a really 
fundamental realignment of the allocation of resources so that 
we do not automatically give $500 billion to defense and $50 
billion to homeland security and take a look at prioritizing 
with some funding going to some of the issues we are discussing 
here today?
    Representative Welch. Well, I kind of like what you said 
earlier on. ``Leahy'' sounds pretty good as Chair of another 
Committee.
    [Laughter.]
    Representative Welch. Or you.
    Chairman Leahy. Either one of us could do that.
    Representative Welch. You know, I think your question 
reflects what is a common-sense awareness that we do have 
money; it is a matter of how we spend it. As you know, the cost 
of the war now is going to be pushing $1 trillion, and it 
really puts an immense amount of budget pressure on other 
priorities.
    What I am having a sense of--and this is on both sides of 
the aisle--is that there is a recognition that we have got to 
start investing in our communities and in our middle class. So 
if the folks in this country across the country vote for that 
kind of change and we get Republicans and Democrats who share 
that view that you expressed, that we should have different 
priorities, I think we have got a very good chance.
    Senator Specter. Thank you.
    Chairman Leahy. One question, and I was thinking about 
this, Mayor, when you were speaking. I have spent some time on 
different occasions with your Boys and Girls Club here in 
Rutland. Is that working pretty well?
    Mayor Louras. Yes, sir.
    Chairman Leahy. The reason I mention this--and I have 
talked to Peter Welch about this before, too. I recall one time 
in getting some grants in one small town, and the police chief 
told me, ``You know, instead of another police officer, can you 
help us get a youth center or get something where kids can 
go?'' I was a strong supporter of that when I was a State's 
attorney, and I think what you said and what Senator Specter 
said, the emphasis on the family and all, it has to be so 
important. Unfortunately, a lot of these kids really do not 
have a functioning family. Tony Bossi is right. It is not just 
the law enforcement matter. You have to have--and law 
enforcement is certainly essential, but you have to have the 
schools and the community organizations and mentoring programs.
    And I think, frankly, it comes down to one other thing. Too 
often, it is awfully easy to say, well, that is the police 
department's problem or the school's problem or the mayor's 
problem or somebody else. It is not. It is all of ours. And we 
as Vermonters have to take part of it, and Senator Specter and 
I feel strongly that we have got to have a reawakening of that 
throughout the country. Otherwise, you can move the problem 
around, but it is just going to keep hitting in other 
communities, and it hurts all of us as Americans.
    I thank you both very much for being here. Peter, you and I 
talk about this all the time, and thank you for taking the 
time. And, Mayor, as I have told you before, you can call me at 
the office, you can call me at home, you can call me anytime 
you want.
    Mayor Louras. Thank you, sir.
    Chairman Leahy. I am going to do the same to you.
    [Laughter.]
    Chairman Leahy. Thank you very much, both of you, for being 
here.
    Representative Welch. Thank you.
    Mayor Louras. Thank you.
    Chairman Leahy. I should note, too, that all the 
statements, full statements of any of the witnesses, will be 
made part of the record in full. And we are going to keep the 
record open--this will be a

[[Page 11]]

formal Senate record--for a number of other people who are here 
who are going to submit testimony for the record.
    Normally what we do in Washington in the more formal 
testimony, we swear the witnesses in. I am not going to do that 
here. I do not think it is necessary, if that is OK with you.
    Senator Specter. That is fine.
    Chairman Leahy. The first witness will be Chief Anthony 
Bossi, although everybody calls him ``Tony.'' He is the Chief 
of Police for the city of Rutland. He joined the force in 1976, 
a year after I joined the Senate. He has gone through the 
ranks, became chief in 1998. Prior to joining the Rutland 
Police Department, Chief Bossi served in the United States 
Marine Corps from 1970 to 1972.
    Marcelle's and my youngest son, Lance Corporal Mark Patrick 
Leahy, served in the Marine Corps.
    He attended the FBI National Academy in Quantico, Virginia; 
was a member of the FBI Law Enforcement Executive Development 
Association; received his associate's degree from Champlain 
College, his bachelor's degree from Castleton State College. 
Chief Bossi, go ahead, please.

 STATEMENT OF ANTHONY L. BOSSI, CHIEF OF POLICE, RUTLAND CITY 
              POLICE DEPARTMENT, RUTLAND, VERMONT

    Chief Bossi. Thank you. Thank you, Senator Leahy and 
Senator Specter, for coming to Rutland. We really appreciate 
it. It is a good opportunity for you to see the city and to 
hear from those of us that work on the streets every day.
    Chairman Leahy. Can everybody hear all right? OK. Pull the 
microphone a little bit closer to you.
    Chief Bossi. How is that? Is that better?
    Chairman Leahy. Better. Especially in the back of the room, 
if anybody cannot hear, just put your hands up and we will try 
to adjust the microphones.
    Go ahead, Chief.
    Chief Bossi. The threat of drugs and violence has to be 
addressed on all three fronts: education/prevention, 
enforcement, and treatment. All three are equally important.
    Rutland City Police have a proactive Community Policing 
approach to Law Enforcement. Our school resource officers, our 
community policing partnership with Rutland United 
Neighborhoods, Rutland Community Justice Center, the Rutland 
City Public Schools, and the Rutland Boys and Girls Club help 
with education and prevention, and the Rutland Drug Court helps 
with the treatment.
    Over the last 5 years, the Rutland City Police Department 
has made over 175 drug-related arrests. Local Law Enforcement 
block grants, Byrne-Justice Assistance grants and COPS grants 
have allowed us to: provide an effective means of identifying 
people and places frequently involved in drug transactions; 
share intelligence information with appropriate agencies and 
entities to facilitate appropriate followup investigations to 
further drug enforcement efforts at the statewide and Federal 
levels; engage in both proactive

[[Page 12]]

and reactive enforcement activities to deter criminal activity; 
and disrupt the local drug supply by identifying and arresting 
violators.
    Law enforcement agencies depend on Byrne-Justice Assistance 
grants and COPS grants to help them in cooperative efforts 
against drugs and violence. These grants are also important for 
prevention and treatment programs and offender rehabilitation 
and re-entry programs.
    Rural States like Vermont need funding for law enforcement 
on three parts: to fund salaries and benefits of officers 
assigned to statewide drug task forces; to support local law 
enforcement efforts; and to support overtime funding for drug 
investigations.
    Rutland City Police partners with Rutland United 
Neighborhoods and the Rutland Community Justice Center. The 
Justice Center is a partnership with the Rutland City Police, 
the Rutland County State's Attorneys, Rutland City Schools, 
District and Family Court, Department of Children and Families, 
and the Department of Corrections. The grant funding issued to 
Rutland Community Justice Center for offender re-entry programs 
pre and post adjudication services dispute resolution is 
critical to these programs. RUN also has a pre-charge program 
in place to address first-time offenders and quality-of-life 
issues. This prevents the courts and corrections from being 
involved in these matters.
    Three Rutland City police officers are assigned to the 
Rutland City Schools covering grades K-12. This program was 
started with COPS grant funds and continues to be funded by the 
Rutland City Police and the Rutland City Schools. These 
officers are involved in the design and delivery of various 
prevention-based and educational programs for faculty, 
students, parents, and interested community members.
    Rutland City Police are also partners with the Rutland Boys 
and Girls club, in a Bureau of Justice Assistance grant for 
youth partnership for crime prevention. The BJA grant will 
allow the Rutland Boys and Girls club to have a peer-based 
leadership program and provide training for the programs at the 
Vermont Police Academy. The after-school programs at the 
Rutland Boys and Girls Club make it less likely for young 
people to begin illegal drug use or be involved in youth crime 
and violence.
    The Rutland Drug Court is designed to help in lowering 
substance abuse among nonviolent offenders to help increase the 
offender's success in remaining drug free. The Rutland City 
Police have been involved with the Rutland Drug court since the 
planning grant. This is another successful use of grant funds.
    Currently the drug that poses the greatest threat to 
Rutland City is crack cocaine. The availability of powder 
cocaine, heroin, diverted pharmaceuticals, and marijuana is 
also high in this area. These drugs primarily come to Vermont 
from New York and Massachusetts. We anticipate seeing 
``meth''--methamphetamine--moving into our area since we have 
seen this development in other rural areas across the Nation.
    The availability of drugs in Vermont has not changed that 
much over the past years. What has changed is the violence that 
has increased over the last few years.
    Vermont is still one of the safest States in the country, 
in part because of the cooperation you have between the 
Federal, State, and local departments.
    Federal support is very important to a small rural State 
like Vermont in keeping the violent crime down. The Federal 
Government support helps to prevent, control, and reduce 
violent crime, drug abuse, and gang activity.
    The police cannot do it on their own. The education/
prevention, enforcement, treatment must be funded equally; they 
are all important. Funding from the Federal Government is 
important to help keeping the violent crime down. The Federal 
funding helps to reduce violence through the use of Community 
Policing, prevention education, treatment, and neighborhood 
restoration.
    Thank you.
    [The prepared statement of Chief Bossi appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Chief.
    Our next witness is Superintendent Mary Moran. She is the 
Superintendent of Education for the Rutland City Schools and 
has served Rutland City Schools--and correct me if I am wrong--
since 1996 as assistant superintendent, became the district 
superintendent in 2000; prior to joining the Vermont Public 
School System, served as teacher and principal in 
Massachusetts, served on various education and community 
boards, including the New England Association of Schools and 
Colleges, Vermont High School Task Force; currently is the 
president of the Vermont Superintendents Association; 
bachelor's and master's from Boston College, certificate of 
advanced graduate study in school administration from 
Northeastern.
    And this is probably a little bit different than your 
normal day, Superintendent, but it is good to see you again and 
good to have you here.

   STATEMENT OF MARY E. MORAN, SUPERINTENDENT OF EDUCATION, 
         RUTLAND CITY PUBLIC SCHOOLS, RUTLAND, VERMONT

    Ms. Moran. Thank you, Senator, and we are very, very 
pleased that you have made the effort to bring the Judiciary 
Committee hearing here to us in Rutland, representing all of 
Vermont, and thank you, too, to Senator Specter.
    We serve over 2,800 children in the Rutland City Schools 
grades K-12, 55 percent of whom are living in poverty. And one 
of the first things that I would like to say as the joys of 
working here in Rutland City is the relationship we have 
between and among the agencies--certainly Chief Bossi and 
police department, but the Fire Service, the courts, the 
diversion program, the regional medical center, Rutland Mental 
Health, the Department of Children and Families, RAP Coalition, 
Mentor Connector, all of these things that you have heard 
somewhat about today and you will hear more about in the 
written testimony. The hallmark of this community, I believe--
and it is true of Vermont--is that we all work together to take 
care of our children and families.
    I would like to start by mentioning a particular group that 
we are concerned about, and that is our EEE children, our 
children

[[Page 14]]

who are 3- and 4-year-olds who come to us with significant 
disabilities. Sometimes they are cognitive, sometimes they are 
medical. So you might ask why are we talking about EEE children 
in a drug and violence hearing, and, quite frankly, we think 
that many of the children who present to us at this tender age 
are children who are suffering from drug use. We have crack 
babies in Vermont. We have children who suffer from fetal 
alcohol syndrome in Vermont. And the schools and all of the 
community agencies that serve these children need to help the 
children and their families so that the children can become 
successful learners and citizens in the community.
    I might note that you will hear a great deal about funding 
from us this morning, and much of the funding debate is: Should 
it be the Agency of Human Services? Should it be the Department 
of Education? The reality is that children need care, and our 
society needs to figure out a way to care for them. We are 
heavily reliant on Medicaid funding for some of the services in 
our schools, and so we hope that you bring that back to the 
Federal legislature in terms of our needs.
    But the reason I begin with EEE children is the second 
group of children I am very concerned about, and that is 
youngsters from 14 to 18. This group of youth are difficult to 
serve, and our agencies are struggling to serve them. But if 
you take a look at some of the youngsters who are becoming 
involved with the folks from ``away,'' as Tony Bossi talks to 
us, who come looking to prey on disaffected youth, it is this 
age group that we are particularly concerned about, which is 
why the comments made earlier about mentoring and Boys and 
Girls Clubs are so important.
    I am particularly concerned about the young women in this 
age group, related back to who are becoming the very young 
mothers of these very challenged children. And, again, we need 
more funding and support for the Department of Children and 
Families to provide respite, to provide more foster care for 
these kids. And there is no criticism implied here. I am very 
well aware that the Department of Children and Families is 
working hard.
    But let's talk a little bit about solutions, what is 
working here in Rutland. Certainly, the schools play a large 
role. We have an outstanding educational system, but we also 
provide significant amounts of medical and counseling help for 
our children, health care. Medicaid supports a significant 
number of our nursing staff as well as our counseling staff, 
and these professionals are working with children and families 
who have struggles to face, who come from homes that might not 
have been as happy and safe as the one in which Senator Leahy 
and I grew up. So those services that the school provides, in 
addition to health education and all of the other activities, 
are very, very important.
    I have another hat in this city. I serve as Chair of the 
Board of Directors of Rutland Regional Medical Center, and I 
know that if we reduce our health services in the school where 
some of the triage is provided to children and families, those 
youngsters and families will present at the emergency 
department of Rutland Regional. They will be well served, but 
the costs will be high.
    Another great success story are the 21st Century Learning 
Center grants. We have a program here in the city called the 
Tapestry

[[Page 15]]

Program, which serves Rutland City, Rutland Town, Proctor, and 
West Rutland in collaboration. We know that the most dangerous 
time for children and youth is 3 to 6 o'clock in the afternoon. 
We provide services for children, education, recreation, 
enrichment, counseling, nursing, library, technology to over 
600 children throughout the year in the afternoon, as well as 
in the summer programs. I also might mention that in Brandon, 
the district that is served by the Rutland Northeast 
Supervisory Union, also their program, known as SOAR, provides 
similar opportunities.
    It is sad for me to note that the funds for the 21st 
Century Learning Center grants at the Federal level have 
essentially been zeroed out. We will figure out a way to 
continue it, but it is to important to let go.
    I would also commend the city schools because that same 
research indicates the time of the day when children are in 
most danger is the 3 to 6 period time. We have a vigorous co-
curricular program in the arts, activities, and athletics to 
keep those youngsters busy, and I commend the taxpayers and the 
city board for supporting that.
    And, finally, the SRO program that Tony spoke about, we are 
in our 9th or 10th year. We train together, police officers and 
school leaders. We have three officers; they provide 
counseling, teaching, mentoring. They are visible in the 
schools to provide that protection and that visibility. They 
visit homes. They work with kids. And when they are not in 
school during school term, they are on the streets as beat cops 
and resources in the communities. The kids know these fellows--
all guys right now, but they know these people, and they go to 
them for help and counsel. And that is very, very important.
    Now, I might sound like a broken record here, but those 
found, too, are in danger. The schools, the Boys and Girls 
Club, the RAP Coalition, and the Mentor Connector are all 
working together to help out children and families. So your 
continued support by being here and helping us as we go forward 
is greatly appreciated.
    Thank you.
    [The prepared statement of Ms. Moran appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    I might say that you are fortunate to have Senator Specter 
here. All Senators wear various hats because we serve on more 
than one Committee. Senator Specter and I both serve on 
Appropriations, but he has been both Chairman and Ranking 
Member of the Appropriations Subcommittee that does more to 
provide money in these areas for children and others' health 
needs than any other Committee in our Appropriations Committee. 
He has also forged more bipartisan coalitions to get that money 
than practically anybody else in the Senate. So you are 
speaking to the--he is the guy with the checkbook on that one.
    [Laughter.]
    Ms. Moran. Good.
    Chairman Leahy. Commander Tom Tremblay is the Vermont 
Commissioner of Public Safety, a position he has held since 
January following an exemplary Commissioner before with Kerry 
Sleeper. He spent 24 years serving the city of Burlington as a 
police offi

[[Page 16]]

cer, the final 4 years as chief of the department. Both 
Marcelle and I know the Tremblay family well and spent time 
with them. He has many professional certifications, including 
graduating from executive training at the FBI National Academy 
in Quantico, a bachelor's degree from Champlain College.
    Commissioner, you and I have talked about a number of 
things in your former role, and it is good to welcome you 
personally in your new role as Commissioner of Public Safety. 
Please go ahead.

STATEMENT OF THOMAS R. TREMBLAY, COMMISSIONER OF PUBLIC SAFETY, 
   STATE OF VERMONT DEPARTMENT OF PUBLIC SAFETY, WATERBURY, 
                            VERMONT

    Mr. Tremblay. Thank you, Chairman Leahy. We appreciate you 
coming to Vermont and bringing this Committee to hear these 
very important issues. We also thank you for your longstanding 
commitment to law enforcement and public safety in Vermont.
    Senator Specter, welcome to springtime in Vermont.
    [Laughter.]
    Mr. Tremblay. We are pleased to have you with us here 
today.
    Senator Specter. Thank you.
    Mr. Tremblay. I have with me also Colonel Jim Baker of the 
Vermont State Police, as well as Major Tom L'Esperance and 
Captain Tom Nelson, all who have been actively involved with 
Vermont law enforcement for many, many years.
    It is no surprise to any of us in Vermont law enforcement 
the challenges that we face today. You can speak to anybody who 
has worked the front lines, either as a beat officer or as a 
drug investigator in the State of Vermont, the challenges that 
we face. I break these challenges at this time down into three 
specific categories: first of all, in-State drug distribution 
rings that we have seen, perhaps best evidenced by a recent 
press conference that we did titles ``Operation Byrne Blitz.'' 
In that particular press conference just a short time ago, we 
announced the arrest of 22 individuals, 97 criminal charges, 
and the seizure of multiple pounds of both marijuana and 
cocaine.
    One of the interesting trends to note for you here today is 
that 5 years ago, perhaps 10 years ago, in Vermont, ordering a 
kilo of cocaine could occur, but it would oftentimes take days 
or even a week or more to obtain that quantity. Today, it is 
immediately available by distribution networks within Vermont, 
which to me is a substantial change in drug enforcement in 
Vermont.
    The second category I break out is out-of-State drug 
sources. Many of us in our communities throughout Vermont are 
seeing out-of-State drug sources coming to Vermont to 
monopolize drug traffic trade, to sell their wares and peddle 
their poison on our streets at a much higher level than they 
can in some of the larger urban areas that they come from, 
bringing with this an associated crime and violence. These two 
groups, whether it be in State or out of State, we have to 
understand that the profit margins, the amount of drugs that 
are involved become a target for drug rip-offs, which causes 
this kind of increased level of violence that is ongoing in 
Vermont with drug traffickers.
    The third point that I want to make today is the problem 
that we are facing in Vermont with prescription drug abuse and 
addic

[[Page 17]]

tion. The majority of our drug overdose deaths that occurred in 
Vermont occurred as a result of illegally possessed 
prescription narcotics. It has caused a significant concern in 
our communities and significant resources in the law 
enforcement community to investigate these deaths and the 
associated problems that come with them.
    Many of us here who have testified today talk about the 
cooperative law enforcement here in Vermont that we enjoy. I 
would have to mention U.S. Attorney Tom Anderson's commitment 
to that, as well as the Vermont Attorney General, Bill Sorrell, 
and the county prosecutors who all work very closely together 
to examine the best way to prosecute these kinds of cases. The 
local, State, and Federal law enforcement cooperation in 
Vermont is outstanding.
    The Vermont Drug Task Force is perhaps the best example of 
that. The Vermont Drug Task Force is a multi-agency group of 
investigators comprised of State, county, and local officers 
that is funded largely through Federal dollars. There are 23 
members assigned to the task force; 15 of those members, or 
over 60 percent, are either funded 100 percent with Federal 
dollars or their positions are back-filled with Federal 
dollars. Three local positions are funded with a State grant 
known as the Community Drug Interdiction program, and the 
remaining five are funded directly from State Police budget.
    The Federal funding, which also accounts for 90 percent of 
the task force operating and equipment costs, is also 
considered volatile and usually allows for the task force to 
forecast only an 18-months spending plan. This Vermont multi-
investigative approach is and continues to be the most 
effective means of addressing the drug importation and 
distribution in our State. Federal funding and State resources 
must continue for this multi-agency task force to ensure the 
continued success and to ensure the protection and safety of 
all Vermonters from drug-related crime and violence.
    I would like to point out a couple of--this hearing is 
titled ``solutions'' and talk a little bit about that. 
Aggressive enforcement must remain part of this solution. Chief 
Bossi talked about that. It is not the only way, but because we 
are law enforcement officers, I have to address aggressive 
enforcement strategies. Aggressive enforcement strategies in 
Vermont must remain in effect. They must be professional, and 
they must be done without bias. We must ensure that training of 
our local and State and Federal law enforcement officers 
remains in existence.
    One of the problems recently in Vermont has been that the 
Drug Enforcement Administration approximately 10 years ago 
stopped bringing training here that was vital to Vermont law 
enforcement. We must remain above the curve here to deal with 
the changing trends in criminal behavior.
    Some of the out-of-State problems that we are experiencing: 
We have to take a look at a new way of doing business. We have 
to get creative with our problem-solving and take a look at not 
just working with the out-of-State law enforcement agencies 
where these out-of-State sources come from, but perhaps 
considering media or messaging campaigns to those larger cities 
and areas so that Vermont does not become a safe haven for drug 
dealers.
    Crime analysis and problem-solving is a key component of 
what we are doing to try to stay ahead of the problems before 
they become invested in our neighborhoods, like examples we 
have seen in Barre and now in Rutland. By analyzing our crime 
stats and what-not and having the resources and funding 
necessary to be able to analyze that, perhaps Vermont law 
enforcement can extend itself and stay ahead of the problem.
    As I said, drug education, treatment, enforcement, and 
rehabilitation are all part of the solution. Governor Douglas's 
DETER program has been helpful, but there is much more work to 
be done.
    You have heard it all today from all of the witnesses talk 
about the importance of Byrne and JAG grant funding to continue 
these important programs. It is going to help keep Vermont and 
other rural States that are facing the changing criminal trends 
in drug-associated crime and violence to help keep all of 
Vermonters and people who live in the rural State in our 
country safe.
    Thank you for your time. I appreciate it and will welcome 
questions when they come.
    [The prepared statement of Mr. Tremblay appears as a 
submission for the record.]
    Chairman Leahy. Thank you.
    Our next witness is Hal Colston, who is the founder and 
Executive Director of NeighborKeepers, a nonprofit anti-poverty 
organization based in Burlington. He also founded the Good News 
Garage, a nonprofit that provides repaired, donated vehicles to 
people in need. Marcelle and I first met him when we brought in 
a vehicle and donated it there a number of years ago. He has 
been widely recognized for his community service. He received 
the Peter Drucker Nonprofit Management Innovation Award in 
1999, the U.S. Department of Housing and Urban Development's 
Best of the Best Practice Award in 2000; appointed to the 
Governor's Workforce Equity and Diversity Council in 2001, 
serves there today; and, Senator Specter, he received a 
bachelor's degree from the University of Pennsylvania. To 
balance this, he then received an honorary degree from my alma 
mater, St. Michael's College.
    [Laughter.]
    Chairman Leahy. Go ahead, please.

STATEMENT OF HAL COLSTON, EXECUTIVE DIRECTOR, NEIGHBORKEEPERS, 
                      BURLINGTON, VERMONT

    Mr. Colston. Thank you, Senator Leahy, and thank you, 
Senator Specter. It is my pleasure and privilege to be before 
this Committee to discuss the rise of drug-related violent 
crime in rural America and how to find solutions to this 
growing problem. My testimony will focus on prevention with an 
understanding of the importance of treatment and law 
enforcement.
    I have lived in Essex Junction, Vermont, since 1989 after 
moving here from Philadelphia, Pennsylvania, with my wife and 
three children, who are now grown. The human scale and quality 
of life in Vermont has been very important to me as a parent 
and as a citizen. But the proliferation of drug use and the 
related violent crime has given me pause as of late. I have 
witnessed how drug abuse violently tears apart families.
    I believe it is important to go upstream to understand why 
the demand for drugs continues to increase, and especially 
among the young people in our community. As long as the demand 
for drugs is brisk, there will be drug dealers lined up ten 
deep to meet this demand. In my view, drug dealers are people 
who have lost hope. Some of them may come from out of State to 
capitalize on this opportunity, but dealers would not be in 
business unless there is a demand. Our recent Youth Risk 
Behavior report prepared by our Department of Health has shown 
that marijuana use has shown a slight decline, yet the report 
did not measure the abuse of prescription drugs, which can lead 
to hard, addictive drugs such as heroin, cocaine, and 
oxycontin. How do we deal with the consumption side of the 
problem?
    I feel we do a disservice to our teenagers by creating a 
cliff effect for the 14- to 16-year-olds during the summer 
months. They are too old for summer recreational programs, and 
they are not old enough to work. So they tend to drop out of 
sight and are left to their own devices unless families have 
the resources to put them through endless summer camps, 
providing them with healthy activities. Yet the reality is that 
many families cannot afford this option. When our young people 
abuse drugs at such a young age, they risk their emotional 
development. Peer pressure becomes a powerful force that can 
keep our children trapped into abusing drugs.
    This is compounded when our young people who experiment 
with and abuse drugs go back to school in the fall. Studies 
have shown that the most dangerous time during the school day 
is from 3 p.m. to 6 p.m. Many parents are at work, and our 
children may be home alone if they are not involved with 
extracurricular activities at school or part-time work. Without 
structure for healthy activities and clear boundaries for 
behavior, it is no surprise to me how our kids get onto a path 
of abusing drugs. How do we deal with this side of the problem?
    Well, why not shift our school day to begin at 9 a.m. and 
end at 5 p.m.? This would eliminate the vulnerable time of the 
day when we give adolescents the opportunity to exercise risky 
behavior. Studies have shown that under the typical school day 
students on average do not get sufficient sleep, losing rest 
for a vigorous day at school. The unintended consequence of a 
change such as this could improve school performance and 
decrease drug abuse.
    It really does take a village to support our children, and 
that village must include all of its parents. Living in an 
affluent community, I have seen how parents are stretched 
between career and family. And the outcome is that parents 
become isolated from one another as we try to keep pace with 
making a living and providing for our families. It becomes too 
difficult for parents to act together.
    A typical scenario is that a parent or parents plan to 
leave town for the weekend and have the child spend the weekend 
with a friend--an empty house that no other parents may know 
about. Before you know it, a get-together is planned without 
any of the parents speaking to one another. We get hoodwinked 
and our teenagers get a chance to have an out-of-control party 
fueled by drugs. How can our community deal with this side of 
the problem?
    What all of us parents have in common are our schools. 
Perhaps the schools can bring parents together at middle school 
to learn

[[Page 20]]

how to act together for the well-being of our children. Parents 
Acting Together could partner with the schools to learn how and 
why strategies for communicating with one another are 
important. This associational relationship could provide the 
opportunity for building meaningful relationships.
    There are families in our community with parents who are 
recovering from drug addiction lacking associational 
relationships. How can such a family get support so their 
children don't repeat their experiences of self-destruction? I 
direct a new nonprofit in Chittenden County called 
NeighborKeepers with a vision to break the bonds of poverty one 
family at a time. In my view, poverty is surviving with a lack 
of resources such as financial, physical, mental, emotional, 
spiritual, and role models. We employ the Circles of Support 
model and practice radical hospitality, creating a community 
where families befriend allies who help them accomplish their 
dreams and goals. Typically, three allies comprise a Circle of 
Support and learn to ``do with'' as opposed to ``do for'' their 
new friends. Not only are the families transformed but the 
allies are also as they learn how barriers and policies keep 
people trapped with a lack of resources. Ultimately, our 
community benefits as marginalized families are able to 
increase their social capital.
    NeighborKeepers has two families in our Circles of Support 
community with parents who are recovering addicts. I have 
watched them come alive with their new friends and a new sense 
of purpose--understanding that they, too, have something to 
give back. At NeighborKeepers we teach reciprocity, which is 
critical for healthy relationships and critical for building 
healthy communities.
    In conclusion, I believe that we must think out of the box 
to find solutions to drug-related violent crime in rural 
America. We need to focus on the needs of our children and 
families, which are the building blocks of a healthy community. 
If we can replace their isolation with meaningful activities 
and relationships, we can make tomorrow brighter for all. For 
me Dr. James Comer of Yale University says it all: ``No 
significant learning can take place without a significant 
relationship.'' It is all about meaningful relationships.
    Thank you.
    [The prepared statement of Mr. Colston appears as a 
submission for the record.]
    Chairman Leahy. Thank you. And our last--
    [Applause.]
    Chairman Leahy. Thank you. And our last witness is Bert 
Klavens, who is adolescent drug and alcohol counseling program 
coordinator for Washington County Youth Service Bureau. He has 
been there since 2003. He has been with the Washington County 
Youth Service since 2000, previously worked as drug and alcohol 
counselor, is a native of Washington County. I am delighted to 
see you here. He is an experienced and licensed drug and 
alcohol counselor. He has worked with many organizations in 
Vermont, including New Directions of Barre, where he worked as 
a coordinator for a community-based substance abuse prevention 
program, Central Vermont Community Action Council, and received 
his master's of arts degree in counseling psychology from 
Norwich University in Northfield.

[[Page 21]]

    What we are going to do, Mr. Klavens, when you finish your 
testimony, I am going to yield to Senator Specter for the first 
round of questions because he and Mrs. Specter have to catch a 
plane back home. When he finishes his questions, we will take a 
5-minute break. Then we will come back, and then I have a 
series of questions.
    Mr. Klavens, go ahead.

   STATEMENT OF BERT KLAVENS, COORDINATOR OF SUBSTANCE ABUSE 
TREATMENT PROGRAM FOR ADOLESCENTS AND YOUNG ADULTS, WASHINGTON 
 COUNTY YOUTH SERVICE BUREAU/BOYS AND GIRLS CLUBS, MONTPELIER, 
                            VERMONT

    Mr. Klavens. Thank you. I work with a lot of people who 
have drug abuse and dependency problems, and for each person, I 
ask myself: Why are they using these terrible drugs? And why 
have they grown to depend on them so?
    We do a comprehensive assessment, including a detailed drug 
use history, of every person who enters our program. In the 
Central Vermont communities that my program serves, increased 
cocaine use started showing up on the drug histories of our 
clients at almost the same time increased violent crime started 
appearing in our community. It is not hard to remember the 
1980s when widespread cocaine use co-existed with an explosion 
of violent crime in communities all across America.
    Different substances tend to cycle through our communities, 
each with their own particular set of effects. It seems that 
cocaine, which is a stimulant, causes more aggressive and 
violent behavior. Five years ago, when heroin appeared in our 
communities seemingly overnight, the big concern was the 
frightening addictiveness of this drug and the ability to 
destroy lives. The crime issues are more about property crime 
to support what for addicts becomes a very expensive drug 
habit. These are not a series of separate problems. They are 
different expressions of the same basic problem.
    This country has worked heroically to keep drugs off our 
streets, but they are still all too available. Unfortunately, 
it is rare that I hear my clients tell me that they want to use 
drugs but they just cannot find them.
    We have to start doing a better job of addressing the 
demand side of the equation, which means treating the needs 
behind people's use of substances.
    I have worked with many clients in the corrections system 
over the years, the population most likely to be involved with 
drugs and crime and violence. In almost every case, these 
clients have extensive histories of substance abuse and 
dependence; at least one if not more diagnosable illnesses, and 
past histories of abuse or neglect. They are struggling and 
wounded young people, often with undiagnosed or untreated 
psychological and physiological problems.
    Recent research about co-occurring disorders sheds some 
light on this. Substance abuse problems very often occur with 
mental health disorders. Estimates put the number of substance-
abusing people with co-occurring mental health disorders at 
upwards of 60 percent. In the corrections system, that number 
rises to between 75 and 80 percent.
    Serious substance abuse problems usually occur along with 
mental health diagnoses such as major depressive disorder, 
bipolar disorder, PTSD, different anxiety disorders, conduct 
disorders, and so on.
    I had this experience with one young woman I worked with 
who was a recovering--well, when I was working with her, she 
was an active heroin addict and recovering cocaine user. In her 
history was both sexual and physical abuse, major depressive 
disorder, anxiety disorder as well. Unfortunately, this 
combination is all too common, especially in the corrections 
system.
    People who abuse substances often feel terrible and are 
looking for relief. Substances are remarkably effective in the 
short term at accomplishing what is for the substance abuser 
their primary purpose. They change the way he or she feels.
    I want to say clearly that I do not think that any 
illnesses or past difficulties excuse violent or other law-
breaking behavior. Our current practice of imprisoning 
substance abusers is not working for a variety of reasons. In 
Vermont, as has recently become clear, this is no longer an 
economically viable strategy. We cannot afford to keep building 
prisons. Additionally, jail does not cure the conditions 
driving these behaviors. People who enter jail with co-
occurring disorders usually exit with the same conditions.
    Treatment works. It works as both intervention and 
prevention, interrupting dysfunctional patterns of thought and 
behavior and giving people the tools to live a substance-free 
life. Compared to other prevention programs, treatment has the 
added advantage of focusing attention and resources on the most 
hard-core drug users. Treatment works, and helping people with 
abuse and dependency issues move on from substance-abusing 
behavior directly reduces the prevalence of substance abuse and 
abuse-related violence in our communities.
    I would like to share with you some of the positive work 
that is happening in my agency. For the last year and a half, 
we have been running the Return House Program, which provides a 
structured, supervised, supportive environment for inmates re-
entering the community. Working in concert with the bureau's 
mental health and substance abuse programs as well as other 
community resources, we are able to address co-occurring issues 
of the residents in an effective way and help them stay out of 
jail and be safe.
    In the substance abuse treatment program that I run, we 
have found teaching our clients tools for emotional regulation 
to be very useful. Difficulty in dealing with challenging 
emotions and thoughts lies at the core of the day-to-day 
struggle that substance abusers have in trying to eliminate 
drugs from their lives.
    We had an example recently of a young man who came to us, a 
chronic marijuana user. We were able to teach him some 
mindfulness-based practices for dealing with that, and he was 
so enthusiastic about it that he actually opted to continue 
treatment past when his mandate was over. He actually went back 
to his probation officer and told her how useful this was.
    Successful therapeutic intervention begins with strong 
relationships. This is something we try to really focus on in 
our programs. We try to stay with kids and work with them as 
long as possible. One of the things that gives us the 
opportunity to do is sort of see

[[Page 23]]

what happens when some of the other agencies leave the room. A 
lot of services are designed around crisis. They are in these 
kids' lives for a little while, and then they leave. So I guess 
I would really like to support what--just reaffirm what some of 
the other people have said about the importance of establishing 
strong relationships with these young people.
    In conclusion, my hope in giving this testimony is to raise 
awareness of the key role that treatment programs can play in 
reducing substance abuse and substance-related violent crime in 
our communities. I also hope that I have been able to shed some 
light on the reality of substance abuse as a co-occurring 
disorder that requires a comprehensive approach to cure.
    Thank you.
    [The prepared statement of Mr. Klavens appears as a 
submission for the record.]
    Chairman Leahy. Thank you. Thank you very much.
    As I said, we will go next to Senator Specter for questions 
because of his time schedule.
    Senator Specter. Thank you, Mr. Chairman. I congratulate 
you on assembling such an outstanding group of experts.
    Chairman Leahy. Thank you.
    Senator Specter. These seven witnesses have covered beyond 
the waterfront, covered very, very important subjects.
    There is a theme which runs through the testimony about 
prevention. Dr. Colston talks about the demand. Mr. Klavens 
talks about prevention and demand. And the chief started off 
his testimony with education and prevention. So we turn to you, 
Superintendent Moran. What are the specifics of the educational 
program in Rutland? At how early an age do you start to talk to 
children about the problem of drugs?
    Ms. Moran. Well, I think we talk with them at all ages in a 
developmentally appropriate way.
    Senator Specter. OK, but what is the earliest age you 
start?
    Ms. Moran. When they are in kindergarten and first grade. 
In terms of our--
    Senator Specter. First grade?
    Ms. Moran. Not so much in terms of drugs per se, but 
healthy living, healthy choices.
    Senator Specter. Well, when do you start on drugs?
    Ms. Moran. We have a formal program on drugs in fifth 
grade, with the DARE program that Chief Bossi--
    Senator Specter. Could you do it sooner?
    Ms. Moran. We probably could. But I think that what we are 
doing--I guess in answering your question, Senator, is when you 
say when do we start on drugs, what we are trying to do is talk 
with children about healthy choices, what to avoid, how to seek 
help, how to go to adults, whether it is in the school or at 
home, so that they know and do not put themselves in situations 
where--
    Senator Specter. Superintendent Moran, I can understand 
that, but with the pervasive problem of drugs, I come back and 
focus on drugs. I would like you to reconsider the earliest 
time. We seem to find that youngsters have a great capacity.
    Mr. Klavens, you talk about cocaine and violent crime.
    Mr. Klavens. Yes.
    Senator Specter. I would be interested in the law 
officials, the chief and the commissioner, as to their views on 
the current effort to reduce sentences on mandatories for crack 
cocaine use. What do you think about that, Chief? We are 
talking a lot about that with the U.S. Sentencing Commission. 
Should we reduce the penalties, the mandatory sentences on use 
of crack cocaine?
    Chief Bossi. My feeling on sentencing is that I have a lot 
of confidence in judges. I think judges should have some 
flexibility on sentencing. I think that when it comes to 
violence and people with guns, you need to lock them away for 
as long a period of time as you can.
    Senator Specter. Are you satisfied with the severity, the 
toughness of sentencing that you get in your Rutland courts?
    Chief Bossi. Yes, in the Federal--
    Senator Specter. I had a lot of problems in Philadelphia.
    Chief Bossi. In the Federal system, it is really good. In 
the State system, what we are lacking is, I think, additional 
penalties.
    Senator Specter. Well, the Federal system has mandatory 
sentences.
    Chief Bossi. Yes, it does.
    Senator Specter. And the Sentencing Commission, there has 
been some change on that.
    Chief Bossi. Right.
    Senator Specter. But crack cocaine, it is really uncertain 
now just exactly where the mandatories stand, but most of the 
Federal judges are still using the Sentencing Guidelines for 
tough sentences, mandatory minimums for crack cocaine.
    Commissioner Tremblay, what do you think about that? Should 
those mandatory minimums be maintained?
    Mr. Tremblay. Well, the chief talks about the State 
sentencing, and the mandatory sentencing that the Federal 
guidelines have make it much easier for Vermont law 
enforcement. We oftentimes seek Federal prosecution when we 
know we have a significant case.
    The Vermont Drug Task Force operators on the front lines 
will tell you that the mandatory sentencing that related to 
crack cocaine changed the way that cocaine dealers were doing 
business--no longer importing crack cocaine but bringing powder 
cocaine. So we know that it plays a difference in the way that 
drug offenders operate.
    A recent example of our State court, something that was 
reported in the Rutland Herald on March 9th, a gentleman was 
found with 145 bags of heroin selling on the streets of 
Montpelier. Come to find out he is also expected to face 
possession of heroin. His arrest came 5 months after he was 
convicted on a charge of selling heroin in just September.
    These are examples of ineffective sentences that do not 
have the supervision that people need. Mr. Colston and Mr. 
Klavens talked about the need to ensure that people have the 
support that they need to be successful when they get out. That 
is something we have to look at. I do not know a lot about that 
particular case, but offer it as an example for your question.
    Senator Specter. Dr. Colston, I am very much impressed with 
your resume. I see in your bio here the New England Culinary 
Institute.
    [Laughter.]
    Senator Specter. Chef at La Terrasse Restaurant in 
Philadelphia 1978 to 1981. We have had--
    Chairman Leahy. Is that a good restaurant?
    Senator Specter. We have had many good meals there.
    Mr. Colston. Thank you.
    [Laughter.]
    Senator Specter. Would you mind if I yielded on my 
questioning to my wife?
    [Laughter.]
    Senator Specter. She is a gourmet cook, attended Cordon 
Bleu, and had a pie-baking company. Joan, would you mind taking 
over at this point?
    [Laughter.]
    Senator Specter. I do not have a whole lot of time left.
    I am impressed with the substance of your testimony, Dr. 
Colston, as I am, candidly, with everybody. And you point your 
finger at a real problem. You talk about having school from 9 
to 5, and you talk about those weekend parties. And you cannot 
follow them all the time. You cannot follow the children all 
the time. They are going to have some time on their own. And 
the theme that comes through with everybody's testimony is 
values. Values. And what my wife and I have found on the values 
side is examples that parents set. You can do a lot of talking, 
but if you do not set an example, it does not sink in.
    And I also note through the testimony a lot of talk about 
the Boys and Girls Clubs. Dr. Colston, what do you think about 
the promise or potentiality for getting volunteer groups? We 
talk a lot about Federal funding, and I think we need it, and I 
am for a reappraisal. Senator Leahy accurately points out to my 
chairmanship and now ranking on the education and health 
programs for a lot of Federal funding. But we are in a spot 
where we are not going to get it very fast, and the volunteers 
that we have in the Boys and Girls Clubs, these are resources 
you have available, and some mentors. The parents are entitled 
to a weekend off to try to rehabilitate their relationship.
    What do you think about the potential for really having a 
massive program in America to get mentors to be surrogate 
parents?
    Mr. Colston. I think the potential is enormous. I believe 
that from my experience working with our allies in our program, 
this opportunity is really a meaningful experience for them. It 
gives them something to look forward to, to know that they are 
making a difference. And I do believe that we need to be 
mindful of the potential of the social capital that we can tap 
into. And I do believe that when you ask people to step up, 
they will do so.
    So I believe that we need to look at volunteerism, 
mentoring, coaching, models that bring people together in 
meaningful ways in order to plant those seeds of values that 
our kids are starving of.
    Senator Specter. Well, thank you all. Senator Leahy, I am 
very encouraged by what I see here in Rutland.
    Chairman Leahy. Well, I cannot thank you enough for taking 
the time to come up here.
    Both Arlen and I handle these problems all the time on the 
Judiciary Committee in Washington, and I have always said in 
all the

[[Page 26]]

committees I have served on--Appropriations, Agriculture--when 
you get out in the field, you get the better answers.
    When we come back from the break, I am going to start off 
with a question to Commissioner Tremblay. He said something 
about don't let Vermont become a drug haven for gangs, and my 
question, and think about it before taking the break: Has 
Vermont become such a haven in some parts of the State?
    Senator Specter. Pat, one final comment on how encouraged I 
am to see such a turnout here today. Nobody in the audience is 
under subpoena.
    [Laughter.]
    Chairman Leahy. We have had some that were.
    Senator Specter. It is great to see so many people here. I 
see a lot of community activism in this room, which is a great 
tribute to Rutland. I do not know how many places you could 
come to a community of 17,000 people and find this kind of a 
turnout, and I think it is a tribute to your Senators--Senator 
Leahy of course, and Senator Sanders--and the Congressman and 
their local officials. But I like the T-shirt of the fellow out 
there, ``Keep Rutland Beautiful. Keep Out the Drug Dealers.'' 
And maybe we can make some T-shirts, ``I Volunteer to be a 
Mentor.''
    Thank you for inviting me and congratulations.
    Chairman Leahy. Thank you very much.
    [Applause.]
    [Recess 10:41 a.m. to 10:50 a.m.]
    Chairman Leahy. During the break I spoke with Senator 
Specter as he was leaving about the advantage of getting on 
these field hearings. He does them on a somewhat regular basis 
in Pennsylvania. I have been encouraging members of the 
Judiciary Committee, both Republicans and Democrats alike, to 
go out and hold hearings outside of Washington. Obviously, 
Marcelle and I like it when we have one of those hearings in 
Vermont because we can be in our own home and we can be with 
family and relatives--grandchildren. But we were talking on the 
way out that we have got to have more of these. I think we are 
going to start trying to institutionalize more such hearings.
    When I was Chairman of the Senate Agriculture Committee, I 
actually, as we were preparing for a 5-year farm bill put 
members of the Committee in one of the Government airplanes, 
and we went to half a dozen States that were going to be 
heavily affected by it. And over a 3 day period we held 
hearings. Those times we stayed in farmers' homes and as a 
result came out with a very good farm bill.
    I think we are going to have to do some similar things on 
some of these crime and judiciary hearings. Senator Specter was 
right. You get more attendance actually here than you do in 
Washington. Unfortunately, in Washington, with all due respect 
to many of the people who testify, we see some of the same 
faces all the time. They are very, very good, but the laws that 
we enact affect everybody. And just even the conversations in 
the hallway about mentoring and law enforcement and others are 
important.
    But, Commissioner, just before we broke, I mentioned to you 
I wanted to followup on something you said. You spoke--and we 
all agree with this, all of us as Vermonters agree with this. 
We do not

[[Page 27]]

want to let Vermont become a drug haven for gangs. Are there 
parts of Vermont where there is a haven for gangs?
    Mr. Tremblay. I would not say there is a haven. What I 
would say is that it has been my experience--
    Chairman Leahy. Pull the microphone closer.
    Mr. Tremblay. What I would say is it has been my experience 
that we know that there have been drug dealers arrested, there 
have been other offenders that Vermont law enforcement has come 
in contact with that have gang ties to other larger urban 
areas. They come here to test the waters, quite honestly, but 
this is to me what makes Vermont so special. This gathering 
here today of community members coming forward, we have not 
allowed ourselves to become communities or a State that just 
accepts that crime will occur in our communities. We will not 
stand for it. It is gatherings like this that help that. It is 
the cooperative law enforcement that I talked about.
    When a gang affiliation is determined during the course of 
a drug investigation, or any criminal investigation for that 
matter, there is immediate communication between local, State, 
and Federal partners, at which time we ramp up very 
significantly to ensure that while they are testing the waters, 
that the waters are not comfortable for them here. We make 
every effort to ensure that they will not become infested in 
our communities here.
    Chairman Leahy. Commissioner, I am glad to hear that, 
because I would hate to think, whether in urban areas or 
anywhere else, that any gangs would think that they have safe 
haven in Vermont. I also am encouraged by your answer that we 
realize nobody is going to be able to handle it alone--the 
local police aren't, State police aren't, Federal. You have got 
to work together.
    I feel privileged to represent Vermont in the Senate. I 
feel very privileged to serve as Chairman, and I know that 
Senator Specter does in the time he has been Chairman. But I am 
first and foremost a Vermonter, and I will pledge to you and 
the others, if you need help, if you need support, I will help 
you get it. As a Vermonter, I do not want to see my State in 
any way tainted by these people. I want them stopped. I want 
them stopped at our borders. If they come inside our borders, 
then I want them stopped here.
    In the meantime, with especially the young people in 
Vermont, I want to make sure they have the help they need, 
because it is not easy--it is a lot different life than it was 
when I was growing up in Montpelier as a child. Things have 
changed, and these young people need help. That is why I have 
been very pleased to hear the comments about education and 
mentoring.
    Chief Bossi, I am going to ask you, just what do you think 
are some of the things that work the best here in Rutland? And 
I ask this question thinking that, remember, this transcript is 
going to be part of our record in Washington, and others will 
be looking at it from other parts of the country for ideas.
    Chief Bossi. I think what has worked best for us is the 
community involvement. When did the Rutland United 
Neighborhoods, we got the neighborhood groups together. It is 
the school officers in the school system and the close 
relationship that we have with the school system. And it is 
working together, the Boys and Girls Club;

[[Page 28]]

it is taking care of the young people, finding things for the 
young people to do to keep them out of trouble, because that is 
the future.
    The other thing that works so well for us in Vermont, as 
what everyone has talked about, is the cooperation with law 
enforcement. We have a really small law enforcement presence in 
Vermont, so we have to work together. And we do work together, 
from the prosecutors at the Federal level and the State and 
county level, to the State law enforcement, local, and county 
law enforcement. We all work closely together, and that is why 
I think you see a lot of what happens in Vermont we are able to 
keep away. We are getting a lot more violence, but working 
together, we can address the violent issues.
    It is the funding that all of us need to keep it going that 
is most important to us right now. But I think it is working 
together and not forgetting that we have to work with young 
people. The mentoring programs, Boys and Girls Club, the 
schools--that is the future, and that is how we can keep less 
people from being involved in drugs and violence, is by taking 
care of them when they are young.
    Chairman Leahy. Well, Superintendent Moran, you heard the 
chief talk about working with the schools. Give me some idea of 
how you feel about that, the cooperation. Again, things are 
different. When I was still in the little high school in 
Montpelier, a high school that is no longer there, we did not 
have police in the schools. We did have nuns with rulers, and I 
think--
    [Laughter.]
    Chairman Leahy. Frankly, I would take the police. They have 
to at least give you a Miranda warning. I shouldn't probably 
let that one be part of the record, but--
    [Laughter.]
    Chairman Leahy. My knuckles still hurt.
    But tell me, how does this work? Is there a feeling of us-
them kind of thing? Can you make it work? Tell me your 
experience.
    Ms. Moran. Well, certainly, and I share the upbringing that 
you do, Senator Leahy, and I think I was more concerned about 
Sister Mary Superior than law enforcement.
    But I do not want anyone to leave today thinking that we 
are just talking about things that sound good. These are things 
that are on the ground and work. When Tony and I first worked 
on developing the School Resource Officer Program about 9 years 
ago, there was some resistance, and there still is, I 
understand, in some communities in Vermont. I do not want or 
they do not want cops in schools. But all of these officers are 
very well trained. We train together. And they are police 
officers, uniformed officers in schools, which is a good 
presence, a good visibility. But as I said earlier, they are 
teachers, they are mentors, they are friends. They are at 
athletic events; they are at social events; they are at 
concerts. They get to know the children, and they get to know 
the teachers. And as a result, the kids know that we know each 
other. Folks know that Tony and Scott Tucker and all of the 
other men and women in the department are working together. And 
that can lead to a common message so that the young people are 
hearing that, first of all--and sometimes it is hard for them 
to hear this--we care about them; and, second, we are going to 
try to figure out ways to

[[Page 29]]

work together to help them. It has never been us and them. I 
can call anyone in the department and get an answer within 
moments, and likewise, I think Tony feels the same way about 
the schools.
    So our SROs are from the little kindergartners all the way 
up to the kids at the high school and the tech center. They are 
people who have gained trust with the young people, so as I 
said earlier, information can come to the police department 
through the SROs because relationships--as Dr. Colston said, 
relationships are essential. The relationship between the Boys 
and Girls Club and the police department and developing this 
very exciting program Tony mentioned earlier is another 
example.
    So I think that it is a positive, proactive example that 
the young people can see and that the community can see as 
well. So I would encourage people who are not well versed with 
the SRO programs to become so. I also think we would both be 
remiss if we did not mention the sheriff's department, because 
there are many schools in our region that are served by the 
sheriff's department in their SRO programs.
    Chairman Leahy. You said something about they are trained 
for it. That is a special training, I assume.
    Ms. Moran. That is correct. They are trained to become, 
specifically to become school resource officers, and Tony 
probably could speak more to that.
    Chairman Leahy. But doesn't that also require some 
acknowledgment and training from those within the schools--the 
superintendents, the teachers, and all--how to respond to that?
    Ms. Moran. Correct, and actually Tony and I trained 
together 9 years ago in D.C., so that it is a partnership 
between school leadership and the police department. And if you 
were to visit the schools and watch these SROs with the 
teachers and the children, you would see that they really do 
build a relationship. They are like members of our faculty.
    Chairman Leahy. Well, let me go into that a little bit 
more, if I might, with the chief. The SROs, school resource 
officers, how were yours originally funded? I think I know the 
answer, but go ahead.
    Chief Bossi. They were originally funded with Federal 
dollars.
    Chairman Leahy. COPS program?
    Chief Bossi. It started with the COPS program. The first 
one we did with the hiring grants. The second ones we did with 
the schools, cops in schools, officers in schools program, the 
schools programs. And then we worked out a partnership with the 
school system so that we both share in the funding of those 
officers in schools now after the retention period.
    So without that starter money, it would have been awfully 
difficult for a city our size to start, you know, funding 
school officers with three schools' officers.
    Chairman Leahy. As you know, the COPS program is being--or 
at least in the President's budget--there is going to be some 
discussion in the Congress whether it is going to work or not--
to cut the money out. Among other things, we have been told we 
need the money for the Iraqi police forces. Frankly, this 
Senator feels we ought to worry a little bit more about our own 
police forces in the United States, first and foremost.

[[Page 30]]

    [Applause.]
    Chairman Leahy. My instruction as Chairman is at that point 
I am supposed to gavel you into order for--
    [Laughter.]
    Chairman Leahy. You notice how slowly the gavel came up. 
But how do you pay for it today, Chief?
    Chief Bossi. It is funded with city dollars--some out of 
the school budget and then some out of the police department 
budget.
    Ms. Moran. And as well, part of our funding for our portion 
of the program has come from Safe and Drug-Free Schools 
funding, which is also being significantly cut at the Federal 
level.
    Chairman Leahy. And I must say, so nobody thinks we are 
being partisan on this, Senator Specter has worked--as a 
Republican, and a senior member of the Republican Party in the 
Senate, nobody has worked harder than he has in trying to get 
funding for these kind of social programs and educational 
programs. He has been a tremendous person on that, and aside 
from my obvious personal friendship with him, it is something 
where--again, we former prosecutors know there are a lot of 
other things in it besides just law enforcement.
    And I think you said, Superintendent Moran, that it is the 
14- to 18-year-olds that are at the most risk. Did I understand 
your testimony correctly on that?
    Ms. Moran. Yes, Senator, and I think if you spoke with 
folks in the Department of Children and Families, we would have 
that same conclusion. And, again, it is not for lack of 
interest or effort, but there are limited resources. And young 
people at  the  14-,  15-, 16-year-old age sometimes are not 
screened in for the level of services one would hope because 
the younger children are demanding so much attention.
    So that is where programs such as our City Schools Health 
Center Campus, which serves potential dropouts, right upstairs 
here in this very building, Boys and Girls Club, Mentor 
Connector, vigorous co-curricular programs, we also have some 
programs where we try to get the older children to help younger 
kids. And sometimes teenagers at risk become great mentors for 
younger children because they make a connection and they see 
that they can make a difference. So while there are many formal 
programs, there are some informal offerings as well.
    Chairman Leahy. And, Dr. Colston, is it your testimony, 
too, that you find that is the age category that is most at 
risk?
    Mr. Colston. Yes, and it is also where they go home. If you 
have families that have come out of generational poverty, they 
are struggling as well. So if you are going to really be 
holistic about the approach, you really want to include the 
family in terms of programming that supports them and gives 
them the space and the hope to be the parent that they ought to 
be.
    Chairman Leahy. We spoke briefly during the break, Mr. 
Klavens and I, and as he knows, my father was born in Barre, 
and my sister runs an adult basic education program for Central 
Vermont. But what I find so surprising, in just talking to 
her--and I realize this is anecdotal--is that, one, the number 
of kids in that category who have problems because of the lack 
of adult family members or mentors, also the number of people 
becoming adults

[[Page 31]]

that are functionally illiterate. They have gone through our 
school system and all, but they are functionally illiterate, 
and the problems that brings about.
    Did you want to add anything to that or address that area, 
Mr. Klavens? Because I think you have found that people in this 
age group, again, 14 to 18 we are talking about, are 
particularly susceptible. Am I correct?
    Mr. Klavens. Absolutely, and you know, one of the things in 
our program when we have people in is our goal is not just for 
them to stop using drugs. Our goal is for them to be happy and 
healthy. So, you know, looking at all these things, as we say, 
you know, mental health diagnosis, you know, even things like 
literacy issues and things like that, is--you know, these all 
put kids at risk, and kids who have drug dependency issues and 
who are trying to move on from that, all these supports, all 
different ways that we can kind of, you know, surround them 
with health are really useful. So we try to do as much as we 
can, but absolutely, I mean, 14 to 18 is usually where we see 
kids starting to use drugs regularly. That is pretty common.
    Chairman Leahy. Well, you have given me a lot to think 
about. I must say I am wearing two hats--as a member of the 
Judiciary Committee and as a member of the Appropriations 
Committee. I have other concerns from the Agriculture 
Committee, but in the Appropriations and in the Judiciary.
    Also, a number of people have asked to submit testimony, 
and that will be submitted, will be made part of the record.
    I should also note to each of you, we will give you a copy 
of the transcript of what you had to say. If you see something 
in there where you gave a number wrong or a statistic wrong or 
something and want to correct it, of course, we will keep it 
open for that. But, also, when you look at something in there 
and it makes you think of something else you would have liked 
to have added, then send a letter and say you want to add this, 
and that will be part of the record.
    Commissioner, do you or does anybody else want to add 
anything else to the record here?
    Mr. Tremblay. I would just add that I think one of the 
things that has always been concerning to me in my 25-year law 
enforcement career here in Vermont, particularly as it relates 
to drugs, is to understand that the Vermont Drug Task Force as 
one example has anywhere between 40 and 50 open drug 
investigations right now. Any drug unit within the State, 
whether it be in a town or a small city, has active drug 
targets that are on waiting lists. And that compounds to the 
problem, that we see some great work going on here, as has been 
evidenced and testified to here in Rutland, yet we still are 
struggling with the problems of drug abuse, drug addiction, and 
the associated crime and now violence.
    We have to stay on top of these drugs cases. We cannot let 
a backlog of drug targets fester in our communities and in our 
neighborhoods. And the importance of ensuring that we have 
enough human resources to deal with it remains a critical 
concern of mines as public safety commissioner.
    Chairman Leahy. Thank you. And we all agree that there is 
no one part of this that has all the answers. It cannot just be 
law en

[[Page 32]]

forcement; it cannot just be the schools; it cannot just be 
drug education and the counseling and the others, but you have 
all got to work together. That is somewhat of an 
oversimplification, but are we all agreed on that?
    Chief Bossi. Yes.
    Ms. Moran. Absolutely.
    Mr. Tremblay. Yes.
    Mr. Colston. Yes.
    Mr. Klavens. Yes.
    Chairman Leahy. Because I remember back when I was State's 
attorney, there was some at that time who thought, well, it has 
got to be totally a law enforcement matter, and I have always 
felt indebted to some very good law enforcement people I worked 
with at that time that said, no, no, you have got to start 
working with the schools, you have got to start working with 
the counselors, you have got to start working with others.
    I thank you very much for taking the time. I thank the city 
of Rutland for opening the doors. And, of course, I thank my 
colleague Senator Specter for coming down here. One of the 
things Marcelle and I look forward to all the time when we have 
one of these breaks in the Senate schedule is to be able to 
come home and have meetings around the State. I will have them 
all week long before I go back. I have never had one of these 
breaks where I have not gone back, one, feeling more 
invigorated; but, second, having learned a lot.
    So thank you all very much, and we stand in recess.
    [Applause.]
    [Whereupon, at 11:11 a.m., the Committee was adjourned.]
    [Submissions for the record follow.] 

    [GRAPHIC] [TIFF OMITTED] T1958.001
    
    [GRAPHIC] [TIFF OMITTED] T1958.002
    
    [GRAPHIC] [TIFF OMITTED] T1958.003
    
    [GRAPHIC] [TIFF OMITTED] T1958.004
    
    [GRAPHIC] [TIFF OMITTED] T1958.005
    
    [GRAPHIC] [TIFF OMITTED] T1958.006
    
    [GRAPHIC] [TIFF OMITTED] T1958.007
    
    [GRAPHIC] [TIFF OMITTED] T1958.008
    
    [GRAPHIC] [TIFF OMITTED] T1958.009
    
    [GRAPHIC] [TIFF OMITTED] T1958.010
    
    [GRAPHIC] [TIFF OMITTED] T1958.011
    
    [GRAPHIC] [TIFF OMITTED] T1958.012
    
    [GRAPHIC] [TIFF OMITTED] T1958.013
    
    [GRAPHIC] [TIFF OMITTED] T1958.014
    
    [GRAPHIC] [TIFF OMITTED] T1958.015
    
    [GRAPHIC] [TIFF OMITTED] T1958.016
    
    [GRAPHIC] [TIFF OMITTED] T1958.017
    
    [GRAPHIC] [TIFF OMITTED] T1958.018
    
    [GRAPHIC] [TIFF OMITTED] T1958.019
    
    [GRAPHIC] [TIFF OMITTED] T1958.020
    
    [GRAPHIC] [TIFF OMITTED] T1958.021
    
    [GRAPHIC] [TIFF OMITTED] T1958.022
    
    [GRAPHIC] [TIFF OMITTED] T1958.023
    
    [GRAPHIC] [TIFF OMITTED] T1958.024
    
    [GRAPHIC] [TIFF OMITTED] T1958.025
    
    [GRAPHIC] [TIFF OMITTED] T1958.026
    
    [GRAPHIC] [TIFF OMITTED] T1958.027
    
    [GRAPHIC] [TIFF OMITTED] T1958.028
    
    [GRAPHIC] [TIFF OMITTED] T1958.029
    
    [GRAPHIC] [TIFF OMITTED] T1958.030
    
    [GRAPHIC] [TIFF OMITTED] T1958.031
    
    [GRAPHIC] [TIFF OMITTED] T1958.032
    
    [GRAPHIC] [TIFF OMITTED] T1958.033
    
    [GRAPHIC] [TIFF OMITTED] T1958.034
    
    [GRAPHIC] [TIFF OMITTED] T1958.035
    
    [GRAPHIC] [TIFF OMITTED] T1958.036
    
    [GRAPHIC] [TIFF OMITTED] T1958.037
    
    [GRAPHIC] [TIFF OMITTED] T1958.038
    
    [GRAPHIC] [TIFF OMITTED] T1958.039
    
    [GRAPHIC] [TIFF OMITTED] T1958.040
    
    [GRAPHIC] [TIFF OMITTED] T1958.041
    
    [GRAPHIC] [TIFF OMITTED] T1958.042
    
    [GRAPHIC] [TIFF OMITTED] T1958.043
    
    [GRAPHIC] [TIFF OMITTED] T1958.044
    
    [GRAPHIC] [TIFF OMITTED] T1958.045
    
    [GRAPHIC] [TIFF OMITTED] T1958.046
    
    [GRAPHIC] [TIFF OMITTED] T1958.047
    
    [GRAPHIC] [TIFF OMITTED] T1958.048
    
    [GRAPHIC] [TIFF OMITTED] T1958.049
    
    [GRAPHIC] [TIFF OMITTED] T1958.050
    
    [GRAPHIC] [TIFF OMITTED] T1958.051
    
    [GRAPHIC] [TIFF OMITTED] T1958.052
    
    [GRAPHIC] [TIFF OMITTED] T1958.053
    
    [GRAPHIC] [TIFF OMITTED] T1958.054
    
    [GRAPHIC] [TIFF OMITTED] T1958.055
    
    [GRAPHIC] [TIFF OMITTED] T1958.056
    
    [GRAPHIC] [TIFF OMITTED] T1958.057
    
    [GRAPHIC] [TIFF OMITTED] T1958.058
    
    [GRAPHIC] [TIFF OMITTED] T1958.059
    
    [GRAPHIC] [TIFF OMITTED] T1958.060
    
    [GRAPHIC] [TIFF OMITTED] T1958.061
    
    [GRAPHIC] [TIFF OMITTED] T1958.062
    
    [GRAPHIC] [TIFF OMITTED] T1958.063
    
    [GRAPHIC] [TIFF OMITTED] T1958.064
    
    [GRAPHIC] [TIFF OMITTED] T1958.065
    
                                 <all>

</pre></body></html>
